     Audit of the State of Massachusetts
Administration of Disaster Assistance Funds
                DEPARTMENT OF HOMELAND SECURITY
                                           Office of Inspector General
                                       Atlanta Field Office-Audit Division
                                            3003 Chamblee Tucker Rd
                                                Atlanta, GA 30341




                                       February 10, 2004

MEMORANDUM

TO:            Kenneth L. Horak


FROM:
               Field Office Director

SUBJECT:       Audit of the State of Massachusetts
               Administration of Disaster Assistance Funds
               Audit Report No. DA-17-2004


Attached for your review and follow-up are five copies of the subject audit report that
was prepared by an independent accounting firm, Foxx & Company, under contract with
the Office of Inspector General. In summary, Foxx & Company determined that the
Massachusetts Emergency Management Agency should improve certain financial and
program inanagement procedures associated with the administration of disaster assistance
funds.

011 October 22,2003 your office responded to the draft report. Based upon your
response, Finding B.3 is closed and requires no additional action. Findings A. 1, A.2, B. 1
and B.2 are resolved, but require an additional response describing actions taken to
implement the recon~mendations.

Please advise the Atlanta Field Office-Audit Division by April 12, 2004, of the action
taken. Should you have any questions, please contact George Peoples or me at (770)
220-5242.
January 14,2004

Office of Inspector General
Department of Homeland Security
245 Murray Drive, Bldg 410
Washington, DC 20528

Foxx & Company conducted an audit of the Conmoilwealth of Massacl~usettsEmergency Management
Agency's administration of disaster assistance programs authorized by the Robert T. Stafford Disaster
Relief and Emergency Assistance Act (Public Law 93-288, as amended) and applicable Federal
regulations. The audit was performed in accordance with our GSA Contract No.GS23F9832H dated
September 30, 1999 under the direction of the Department of Homeland Security, Office of Inspector
General.

This report presents the results of our audit and includes recommendations to help improve the
Comn~onwealthof Massachusetts's administration of Federal Emergency Management Agency disaster
assistance grant programs. As required by the OIG, the findings and recoinmendations in the report only
addressed actions that were needed to improve the state's management of the FEMA grants. However,
for some of the findings, we noted that the region shared in the causes of the conditions reported and that
opportunities existed for the region to strengthen the performance of its stewardship responsibilities.

Our audit was conducted in accordance with applicable Governme~tAuditing Standards, 1999 Re~ision.
Although the audit report coinments on costs claimed by Massachusetts, we did not perform a financial
audit, the purpose of which would be to render an opinion on the financial statements or f ~ ~ n claimed
                                                                                                 ds      in
the Financial Status Reports submitted to FEMA. The scope of the audit consisted of program and
financial activities for seven presidential declared disasters and two emergency declarations that were
open at September 30,2001. These nine declarations occurred during the period of August 1991 through
March 200 1. Included in the scope of the audit were Public Assistance, Hazard Mitigation, and
Individual and Family Grant Programs. The two emergencies included in the nine declarations were
administered under Public Assistance Program procedures as directed in the Presidential declarations.

We appreciate the opportunity to have conducted this audit. If you have questions, or if we can be of
further assistance, please call me at ( 5 13) 639-8843.

Sincerely,

FOXX & COMPANY




Martin W. O'Neill
Partner
                                                 TABLE OF CONTENTS

          Executive Summary ........................................................................................................... 1 


          Background ........................................................................................................................
                                                                                                                                    4

          Objectives, Scope, and h5ethodology ...............................................................................
                                                                                                                          7

          Findings and Recommendations ...................................................................................... 9 


          Financial Management ......................................................................................................
                                                                                                                                9

          1.        Iliiprovenient in Financial Reporting ....................................................................... 9 


          2.        Accounting for Administrative Allowances and Management Grant Costs .......... 12 


          Program Management .....................................................................................................
                                                                                                                              15

          1.        Closure of IFG Programs ......................................................................................
                                                                                                                            15

          2.        Improvements in Administrative and
                    Program Planning ...................................................................................................

                                                                                                                                    17 


          3.         Compliance with Single Audit Act Requirements .................................................18 


Attachments ..................................................................................................................................
                                                                                                                                    21

          A.         Scliedules of Sources and Applications of Funds ..................................................
                                                                                                                    22

          B.         List of Acronyms ...................................................................................................
                                                                                                                                     32

Management Comments ..............................................................................................................
                                                                                                                             33

      FEMA Regional Office, Region I (October 22, 2003) ..........................................................
                                                                                                              34

      Massachusetts Emergency Management Agency ...................................................................
                                                                                                                35

      FEMA Regional Office, Region I (Supplemental Comments) ..............................................
                                                                                                        40
FEMA                                                                 Emergency Management Agency
                                                                     Commonwealth of Massachusetts


                                 I. EXECUTIVE SUMMARY
Foxx & Company has completed an audit of the Massachusetts Emergency Management
Agency's (MEMA) administration of Federal Emergency Management Agency's (FEMA'S)'
disaster assistance grant programs. The objective of this audit was to determine the effectiveness
of MEMA's management and administration of disaster assistance progran~sauthorized by the
Robert T. Stafford Disaster Relief and Emergency Assistance Act (Public Law 93-288, as
amended) and applicable Federal regulations. On October 30,2000, the President signed the
Disaster Mitigation Act of 2000 (Public Law 106-390). This Act, which amended the Stafford
Act, was not fully implemented by FEMA at the time of the audit.

This report focuses on MEMA's systems and processes for ensuring that grant funds were
managed, controlled, and expended in accordance with the Robert T. Stafford Disaster Relief and
Emergency Act (Stafford Act) and the requirements set forth in Title 44 of the Code of Federal
Regulations (44 CFR). Although the scope of this audit included a review of costs claimed for
nine declarations, we did not perform a financial audit of those costs. Accordingly, we do not
express an opinion on MEMA's financial statements or f b d s claimed in the Financial Status
Reports submitted to FEMA. The funds awarded and costs claimed for the nine declarations are
presented in Attachment A.

Our audit included the seven major disasters and two emergencies2 declared by the President of
the United States between August 1991 and March 2001. The disasters and emergencies with the
respective grant programs were as follows:

                                              Public            Individual     Hazard
                                Number       Assistance         and Family    Mitigation
                                               (PA)                (IF)         (HM)




                            /   EM3165   1       X
                                  DR Disaster
                                     -                    Ehl   - Emergency



The Federal share of obligations for the nine declarations at September 30, 2001, was about $155
n~illion.Federal funds claimed through September 30, 200 1 amount to approximately $130 mil-
lion.

 Effective March 1, 2003, the Federal Emergency Management Agency became part of the Department of
Homeland Security.

 In accordance with the provisions of each declaration, the emergencies were managed under the Public Assistance
Program procedures.
FEMA                                                   Emergency Management Agency
                                                       Commonwealth of Massachusetts


In accordance with our agreement with the Office of Inspector General (OIG), our audit focused
on MEMA's current program and financial management procedures and practices. To the extent
possible, we have identified the causes of each reportable condition. We have also made
recoininendations that, if implemented properly, would iniprove MEMA's management,
eliminate or reduce weaknesses in internal controls, and correct noncompliance situations. The
regional office and state provided comments on some of the findings. The comments received
are attached to the report, and an analysis of the coimnents is included, as appropriate, with each
finding. The findings summarized below are discussed in more detail in the body of the report.

Financial Management

       Improvement in Financial Reporting

       MEMA's financial inanagement system needed to be improved to properly account for
       and report on the status of FEMA disaster assistance programs. We noted that MEMA:

                  did not consistently report the non-Federal share of expenditures,

                  did not have a viable system for tracking the local share contributions for
                  approved PA and HMG projects, and

                  needed to improve internal controls over the reconciliation of state reports with
                  the Federal SMARTLINK accounts.

       As a result, there was no assurance that MEMA was adequately accounting for FEMA
       funds.

       Accounting for Administrative Allowances and Management Grant Costs

       MEMA's accounting system and related procedures were not adequate to assure that
       FEMA approved administrative allowances and inanagement grants were used or
       accounted for in accordance with Federal requirements. We found that MEMA used the
       FEMA awarded allowances and inanagement grants without distinguishing extraordinary
       expenses from other expenses as required. In addition, we found that MEMA allocated
       inanageinelit grant costs on an arbitrary basis to individual disasters. As a result, there
       was no assurance that the Federally awarded administrative allowances and nzanagement
       grants were used for allowable purposes or that the management grant costs were
       properly allocated to the appropriate PA or HMG program.
FEMA                                               Emergency Management Agency
                                                   Commonwealth of Massachusetts

Program Management

    Closure of IFG Programs

    MEMA did not request closure of IFG programs in a timely manner. Our audit disclosed
    that MEMA did not submit closeout packages within the required timeframe. Although
    MEMA had received grant extensions from FEMA, the programs were not closed for
    significant periods of time after the extension period.

    Improvements in Administrative and Program Planning

    Improvements were needed in the preparation and subn~issionof required administrative
    plans for the Individual and Family and Public Assistance programs, and the program
    plans for the Hazard Mitigation Grant program. We found that MEMA did not always
    submit the required plans. As a result, the grantee was not paying sufficient attention to
    compliailce with the Federal planning documentation requirements.

    Compliance with Single Audit Act Requirements

    MEMA needed to improve its procedures for obtaining Single Audit Act reports from
    subgrantees. We found that MEMA did not have procedures for inquiring of subgrantees
    about other Federal f~mdingsources and expenditures. MEMA's notifications to
    subgrantees incorrectly stated the single audit requirements. As a result, subgrantees
    were provided erroneous infomlation on the Single Audit Act requirements.
FEMA                                                           Emergency Management Agency
                                                               Commonwealth of Massachusetts

                                            11. Background

Federal assistance is usually needed to supplement the states' response efforts after large
disasters and emergencies. When Federal assistance is needed, the Governor can request the
President of the United States to declare a major disaster or emergency and thereby make
assistance grants available through the Federal Emergency Management Agency (FEMA)'.
FEMA, in turn, can make grants to state agencies, local governments, private citizens, nonprofit
organizations, and Indian tribes or authorized tribal organizations through a designated agency
within the affected state.

Itobcrt T. Stafford Disaster Relief anti Eniergcnc~.\ssistancc .\ct. as amcnded

The Stafford Act governs disasters and emergencies declared by the President of the United
States. Title 44 of the Code of Federal Regulations (CFR) provides further guidance and
requirements for administering disaster-relief grants awarded by FEMA.

The three major programs addressed in this audit were:

           Individual and Family Grants
           Public Assistance Grants
           Hazard Mitigation Grants

Individual and Family Grants (IFG) are awarded to individuals and families who, as a result of
a disaster, are unable to meet disaster-related expenses and needs. To obtain assistance under
this type of grant, the Governor of the state must express an intention to implement the IFG
program. The Governor's request must include an estimate of the size and cost of the program.
The IFG program is funded by FEMA (75 percent) and the state (25 percent).

Public Assistance (PA) Grants are awarded to state agencies, local governments, qualifying
private nonprofit organizations, Indian tribes, or authorized tribal organizations for the
repairlreplacement of facilities, removal of debris, and establishment of emergency protective
measures necessary as a result of a disaster. To receive a PA grant, a designated representative
of an organization affected by the disaster or the emergency must submit a request for public
assistance. After the request is sent to the grantee (MEMA) and to FEMA, FEMA schedules an
inspection of the damaged facilities. An inspection team prepares Project Worksheets ( P W S ) ~
identifying the eligible scope of work and estimated cost for the projects. FEMA reviews and
approves the PWs and obligates the funds. At least 75 percent of the PW cost is paid by FEMA
and the remainder of the cost is paid by non-Federal sources, usually state and local
governments.



3 Effective March 1, 2003, the Federal Emergency Maiiageinent Agency became part of the Emergency
Preparedness and Response Directorate of the Department of Homeland Security.

    Prior to the use of PWs, Damage Survey Reports (DSRs) were used.
FEMA                                                   Emergency Management Agency
                                                       Commonwealth of Massachusetts

In accordance with 44 CFR 206.203, PA projects are classified as either "small" or "large." The
classification is based on a project threshold dollar amount that is adjusted annually to reflect
changes in the Consumer Price Index for All Urban Consumers, as published by the U.S.
Department of Labor. For example, the threshold for declarations in Fiscal Year 2000 was
$48,900. Projects costing less than $48,900 were classified as "small" and projects costing
S48,900 or more were classified as "large" projects.

To speed up payments to subgrantees for small projects, the Federal share of the cost is to be
disbursed as promptly as practicable after approval by FEMA. Subgrantees of large projects
submit periodic requests to the state for funds to meet expenses incurred or expected to be
incurred in the near future. When a project is completed, the state determines and reports the
final cost to FEMA. FEMA then adjusts the amount of the large project to reflect the actual
eligible cost.

Hazard Mitigation Grants (HMG) are awarded to states to help reduce the potential for future
disaster damages. The state must submit a Letter of Intent to participate in the program and
subgrantees must submit an HMG proposal to MEMA. MEMA, as the grantee, is responsible for
setting priorities for the selection of specific projects, but each project must be approved by
FEMA. FEMA awards subgrants to state agencies, local governments, qualifying private
nonprofit agencies, Indian tribes, or authorized tribal organizations.

The costs of the projects are shared with FEMA with the Federal share not exceeding 75 percent
of the costs. The amount of Federal assistance under the HMG program is limited pursuant to
Section 404 of the Stafford Act.

Under the PA and HMG programs, FEMA may grant three types of administrative funds for
illanaging the programs:

     1. An ad~ninistrativecost allowarice is provided to the grantee to cover extraordinary costs
        directly associated with administering the program. The allowance is detern~inedby a
        statutorily mandated sliding-scale percentage (ranging from one-half of one percent to
        three percent) applied to the total Federal disaster assistance awarded under the program.
        The allowance is for extraordinary costs such as those incurred for preparing damage
        survey or final inspection reports; processing project applications; conducting final audits
        and related field inspections; overtime; per diem; and travel expenses. The
        administrative cost allowance does not include amounts for the regular time of state
        employees.

    2. State r~zaltagementcosts to cover expenses directly associated with the program that was
       not covered by the administrative allowance.

    3 . Illdirect costs based on a FEMA approved indirect cost allocation plan.

For the IFG program, FEMA can grant up to five percent of the Federal share of total program
costs for administration costs.
FEMA                                                   Emergency Management Agency
                                                       Commonwealth of Massachusetts



The Massachusetts Emergency Management Agency (MEMA) was the disaster and emergency
management agency for the Co~ninonwealthof Massachusetts. MEMA was responsible for the
coordination of Federal, state, local, voluntary and private resources during disasters and
emergencies.

Through it's Frainingham, Massachusetts headquarters and four regional offices, MEMA:

       developed plans for effective response to hazards, disasters, or threats,

       trained emergency personnel to protect the public,

       provided information to the citizenry, and

       assisted individuals and communities to respond to and recover from emergencies.

According to MEMA officials, there were approximately 70 employees, 50 assigned to the
headquarters office and 20 assigned to the regional offices. The Public Assistailce and Hazard
Mitigation Grant programs were administered by MEMA. A full-time MEMA Public Assistance
Officer managed the PA program. A Hazard Mitigation Officer managed the HMG program.
Other MEMA employees assisted both program officers.

Even though MEMA was the grantee for the IFG program, management of the program was
assigned by Massachusetts to the Department of Transitional Assistance (DTA). In addition to
the IFG Coordinator, other DTA staff n~embersassisted in the management of the IFG program
at the time of a disaster.
FEMA                                                               Emergency Management Agency
                                                                   Commonwealth of Massachusetts

                         111. Objectives, Scope, and Methodology

The objectives of this audit were to determine whether the Commonwealth of Massachusetts
(the grantee) had:
          Administered FEMA disaster and emergency assistance programs in accordance with the
          Stafford Act and applicable Federal regulations,
          Complied with the FEMA-approved disaster assistance administrative and program plans,
          Properly accounted for and expended FEMA disaster assistance funds, and
          Operated and functioned appropriately to fulfill its administrative, fiscal, and program
          responsibilities.

The scope of the audit included the following nine declarations that were open at September 30,
200 1. These disasters and emergencies were declared between August 1991 and March 200 1.


                                  Declarations                                    I        Grant Programs
                                                                                      Status at September 30,2001
                                                                                                                         '
      Number                                  DisasterIEmergency
                   1   08126191    1      Hurricane Bob and ~ l o o d l i l ~ ~   I   Closed   1    A       1   Closed
I     DR0920       /   11104191    1             Coastal storm6                   1   Closed   1   Closed   /   Closed
                                             Winter Coastal Storm
                                                Blizzard of 1996
                                          Severe Storms and Flooding
                                                                                  /   Open
                                                                                      Open
                                                                                       Open
                                                                                                    NiA
                                                                                                    N1A
                                                                                                   Closed
                                                                                                            FF   Open


                                    I           Severe F l o o d ~ n ~            /    NIA     1    O~en
                                          Severe Storms and Flooding                   NIA     1    Open
                                                 Worcester Fire                   1    Onen    1    NIA
                   /   03128101     1                 Snow

The cut-off date for the audit was September 30, 2001. However, we also reviewed cui-rent
activities related to conditions found during our audit to determine whether appropriate
corrective actions had been taken.

Our audit fieldwork was initiated at the FEMA Region I Office in Boston, Massachusetts.
Region I has jurisdiction over FEMA disaster programs in several states, including
Massachusetts. Our methodology included interviews with FEMA headquarters, regional office,
and state officials to obtain an understanding of internal control systems and to identify current
issues or concerns relative to MEMA's management of disaster programs. Our audit considered
FEMA and state policies and procedures and applicable Federal requirements. We reviewed
documentation from MEMA, as well as from FEMA headquarters, the FEMA regional office,
and the FEMA Disaster Finance Center in Berryville, Virginia. We selected and tested


5
    FEMA closed this disaster on May 28, 2002.
    FEMA closed this disaster on January 29, 2002

                                                           7
FEMA                                                           Emergency Management Agency
                                                               Commonwealth of Massachusetts

individual recipient files at the Massachusetts Department of Transitional Assistance (DTA)' and
representative projects at MEMA for compliance with applicable regulations. We also reviewed
the state's procurement and property nlanagemeiit procedures for compliance with Federal
regulations.

We reviewed prior audits conducted within the timeframe of the disasters included in our audit
scope. This included Single Audit Act audits conducted in compliance with OMB Circular A-
133 and project-by-project subgrantee audit reports prepared by the Office of Inspector General
(OIG). Our audit scope did not include interviews with or visits to MEMA subgrantees or
project sites. Also, we did not evaluate the technical aspects of the work performed relative to
the disaster related damage.

The audit was conducted in accordance with Gover.rznzerzt Auditing Stanclnrds as prescribed by
the Comptroller General of the United States (Yellow Book-1999 Revision). We were not
engaged to and did not perform a financial statement audit, the objective of which would be to
express an opinion on specified elements, accounts, or items. Accordingly, we do not express an
opinion on the costs claimed for the disasters under the scope of the audit. If we had performed
additional procedures or conducted an audit of the financial statements in accordance with
generally accepted auditing standards, other matters might have come to our attention that would
have been reported. This report relates only to the accounts and items specified. The report does
not extend to any financial statements of the Commonwealth of Massachusetts or its Department
of Emergency Management and should not be used for that purpose.




 DTA manages the IFG program for the State of Massachusetts.

                                                     8
FEMA                                                     Emergency Management Agency
                                                         Commonwealth of Massachusetts

                        IV. Findings and Recommendations
The findings and recommendations focus on MEMA systems and procedures for ensuring that
grant funds are managed, controlled, and expended in accordance with the Stafford Act and
applicable Federal regulations. The findings from the audit concerned MEMA's financial and
program management activities for the PA, IFG and HMG programs and are summarized below.

We believe that proper and timely implementation of our recomnlendations will help to improve
the overall management of FEMA programs and correct the nonconlpliance situations noted
during the audit.

A. Financial Management

1.   Improvement in Financial Reporting

MEMA's financial inanageinent system needed to be improved to properly account for and
report on the status of FEMA disaster assistance programs. We noted that MEMA:

       Did not consistently report the non-Federal share of expenditures,

       Did not have a viable systenl for tracking the local share contributions for approved PA
       and HMG projects, and

       Needed to improve its internal controls over the reconciliation of state reports with the
       Federal SMARTL~NK'      accounts.

According to 44 CFR 13.20 and 13.41, grantees are to report grant expenditures to FEMA on a
quarterly basis within 30 days after the end of each quarter. The reported expenditures should be
based on the grantee's accounting records, and the financial reports should be accurate, current,
and con~pletein their disclosure of all Federally assisted activities.

In addition, FEMA's Guide to Managing Disastel. Gvants states that the quarterly Financial
Status Reports (FSRs) are a critical component of grant management because the reports ( I )
enable FEMA to carry out its financial stewardship duties, (2) serve as a point of verification to
determine whetlier the grantee is expending Federal funds on a timely basis, and (3) are the
official source of cost-shared information.

We reviewed FSRs for September 30, 2001, for the 17 approved grant programs within the 7
disasters and 2 emergencies included in the scope of audit. The review disclosed that MEMA
did not report the non-Federal share of expenditures for 10 of the 17 programs. We did find that


                          ~   -




 SMARTLINK is the Federal Department of Health and Human Services payment system. It records and reports
obligation and drawdown activities in support of FEMA's disaster assistance programs.
FEMA                                                          Emergency Management Agency
                                                              Commonwealth of Nlassachusetts

for 4 additional prograins of the 17 programs, MEMA reported the state share but not the local
amount of the non-Federal share.9

The lack of financial reporting of the state share, and sometimes the local share, by MEMA has
continued for an extensive period of time. For example, for disasters which were declared as
early as August 26, 1991, MEMA did not report the non-Federal share of the cost of the HMG
grant programs to FEMA. The failure to report the full non-Federal share continued as
demonstrated on the FSRs submitted to FEMA through September 30, 2001.

A MEMA official said that only the Federal and the state shares of expenditures were recorded in
the state's accounting system. The local shares were not recorded because payments were not
made by FEMA or the state to the subgrantees. MEMA added that the state's grant program
managers ensured that the subgrantees contribute the local share when subgrantee reimbursement
requests were reviewed for payment approval. Our review of procedures and documentation in
support of reimbursement requests verified that the program officials approved payment of only
75 percent of the documented costs claimed in reiinburseinent requests.

MEMA's program officials notified the state's Accounting Department when payments were
approved. However, the Accounting Department did not track local share contributions. As a
result, the full anlount of non-Federal share of expenditures was not readily available and was
not always included on the FSRs submitted by MEMA. However, for some programs, the state
reported the state share but not the local share of the total non-Federal contributions. MEMA
officials acknowledged that a separate recording system to "track" the local share of
expenditures would be helpful and agreed to consider establishing a tracking system.

The MEMA official responsible for preparing the FSRs stated that she was not aware of the
requirement to report local sl~ares.Furthermore, the MEMA official pointed out that regional
officials had not questioned the non-Federal share not being reported on the FSRs even though
the reports had been submitted each quarter as required by Federal regulations. Regional
officials acknowledged that their attention had been directed toward the reporting of the Federal
fund activity rather than to the reporting of the non-Federal shares.

In addition, as evidenced by the following examples discovered during our audit, MEMA needed
to implen~entstronger internal controls for the reconciliation of the authorizations and
expenditures in the state accounts wit11 the SMARTLINK accounts. These examples were
discussed with state officials and appropriate adjusting entries were made. However, making
adjusting entries to these examples is not sufficient to strengthen the state's internal control
system related to the recoilciliation process. An effective reconciliation system is important to
ensure that the state's financial reports accurately reflect the financial transactions in the state
accounting system as well as the respective SMARTLINK accounts.




9
 In Massachusetts, the grantee and subgrantees split the responsibility for the 25 percent non-Federal share of PA
and HMG project costs. Each was responsible for 12.5 percent of the project cost.
FEMA                                                    Emergency Management Agency
                                                        Commonwealth of Massachusetts

         Disaster No. 1224 - A drawdown from SMARTLINK of $2,179 was incoirectly charged
         to the HMG program under Disaster No. 1224. The draw should have been charged to
         Disaster No. 1142. MEMA officials said they would correct this error.

         Disaster No. 1224 - FEMA erroneously established an obligation of S 10,000 in
         SMARTLINK for a PA program under this disaster even though the Presidential
         declaration did not include a PA program. After this situation was brought to MEMA's
         attention, MEMA officials requested FEMA to de-obligate the $10,000. An effective
         reconciliation system would have identified this error.

         Disaster No. 1364 - MEMA's FSR for September 30, 2001 reported the Federal
         authorized amount for the IFG program as $1.5 million. The amount authorized was
         $800,000 according to SMARTLINK. After this situation was brought to MEMA's
         attention, corrective action was taken.

         Conclzisiorts and Recolmnelidatiolzs

The FSRs are the basic reporting mechanism by which FEMA can determine the financial status
of the awards to state grantees. Quarterly financial reports provide visibility of the state reported
financial activities. Without current, accurate, and complete state reports, FEMA's source for
information concerning the financial activities of a program is primarily limited to the Federal
systems. Consequently, it is important that the grantee have an effective process for assuring
that its FSRs are in agreement with the amounts recorded in the state accounting system and
SMARTLINK. It is also important that the grantee include accurate and conlplete amounts on
the FSRs for the expenditure of the non-Federal share.

In addition, an effective regional office review and approval process is needed to ensure that the
grantee financial reports are properly prepared and are submitted in accordance with Federal
requirements.

Accordingly, we recommend that the FEMA Regional Director, Region I:

    1.      Require MEMA to establish procedures, including a system to track the non-Federal
            share of project costs, to ensure that accurate and complete FSRs are submitted to
            FEMA on a quarterly basis as required, and

    2.      Establish procedures within the regional office to ensure that the FSRs submitted by
            the grantee are reviewed in a timely manner and that appropriate feedback is provided
            to the grantee.
FEMA                                                   Emergency Management Agency
                                                       Commonwealth of Massachusetts

       Management Response and Auditor's Analysis

The state officials did not comment on this finding. However, the Regional Director, Region I,
concurred with the condition cited and committed to follow through on the recommendations.
We consider the condition to be resolved, but the finding cannot be closed until the
recominended procedures have been established.

2.   Accounting for Administrative Allowances and Management Grant Costs

MEMA's accounting system was not adequate to assure that FEMA approved administrative
allowances and management grants were used or accounted for in accordance with Federal
requirements. We found that MEMA used the FEMA awarded allowances and management
grants wit110~1tdistinguishii~gextraordinary expenses from other expenses as required. In
addition, we found that MEMA allocated manageinent grant costs on an availability of funds
basis. As a result, there was no assurance that the Federally awarded administrative allowances
and management grants were used for allowable purposes.

     a. Use of Administrative Allowances and Management Grants

Under the PA and HMG progranls, MEMA may receive funds from FEMA for costs associated
with the management and administration of disaster assistance programs. Federal regulations
(44 CFR 13.20) explicitly require that grantees maintain records and documents to identify and
support the source and application of Federally f~mdedexpenditures. Federal regulations (44
CFR 206.228 and 206.439) clearly restrict the use of the adnlinistrative allowance for
extraordinary costs. Extraordinary costs are for the preparation of applications for assistance, the
preparation of quarterly reports, final audits, and related field inspections by state employees,
including overtime pay, per diem and travel costs. The administrative allowance for
extraordinary costs is calculated based on a formula in accordance with Federal regulatioils and
the state receives 100 percent of the amount calculated. FEMA's policy requires that grantee
records be retained to support adininistrative allowance expenditures, and that unexpended
administrative allowances be de-obligated with the closeout of the PA and HMG programs.

Federal regulations (44 CFR 206.228 and 206.439) also provide that the state may be reimbursed
for costs not covered by the adn~inistrativeallowances through approved management grants.
These costs are shared by FEMA and the state in accordance with the applicable FEMAIState
Agreement.

Our review found that although expenses paid by MEMA were supported by appropriate
documentation, MEMA did not separately account for expenses that should have been charged to
the administrative allowailce accounts versus those that should have been charged to a state
management grant as required by Federal regulations.

For the PA program, MEMA tracked the expenses on informal worksheets. One worksheet
tracked Federal funds received from approved managenlent grants and the other worksheet
tracked the administrative allowailces received in conjunction with the approval of individual
FEMA                                                  Emergency Management Agency
                                                      Commonwealth of Massachusetts

projects. However, both worksheets contained the same types of expenses without identifying
extraordinary expenses. For the HMG program, similar worksheets were not used.

The PA worksheets were used to assure that the expenses charged did not exceed the amount of
f~mdsreceived from FEMA approved management grants or administrative allowances. The
expenses were listed on the worksheets based upon the balances remaining at the time an
expense was being recorded rather than on the type of expense incurred. Our review showed that
nearly all of the expenses incun-ed were the type that should have been charged as state
lllanagement grant expenses.

MEMA officials said that distinctions between extraordinary versus other expenses were not
made for any of the approved PA and HMG programs. The officials added that the use of
informal worksheets started with the PA program for Disaster No. 1142. Similar worksheets
have been used for subsequently approved disaster programs.

MEMA officials stated that the regional office had advised that the state's accounting system and
procedures for nlanagenient and administrative expenses were acceptable. However, the state
could not provide documentation to support this approval. In addition, regional officials could
not recall having provided any type of acceptance to the grantee on this matter.

     b. Allocation of Management Grant Costs

According to 44 CFR 13.20 (a) (6), accounting records must be supported by source
documentation. Also, Office of Management and Budget (OMB) Circular A-87 states that costs,
to be allowable under Federal awards, must be (1) allocable to Federal awards, (2) necessary and
reasonable for proper and efficient performance, and (3) adequately documented. A cost is
allocable to a cost objective if goods and services involved are chargeable or assignable to such
cost objectives in accordance with the relative benefits received. OMB Circular A-87 fi~rther
provides that (1) any cost allocable to a particular Federal award may not be charged to other
Federal awards, and (2) salaries and wages allocated to more than one cost objective must be
supported by time and effort sheets or some other fonn of documentation supporting costs
charged to each cost objective.

       Public Assistarzce Grants

MEMA received FEMA approval for n~anagementcost reimbursement for only one declaration
included in the scope of our audit. Although MEMA personnel and contract employees had
devoted time and effort to other on-going disaster declarations andlor emergencies, MEMA
charged all the PA management costs ($367,068) to Disaster No. 1142.

Under MEMA's cun-ent time and attendance procedures, state employees and contract
employees do not maintain docun~entationto support time charges to a particular disaster or
other identifiable cost objective. Accordingly, under MEMA's procedures, there is no assurance
that the allocation of management costs will be properly charged based 011 benefit accruing as
required by OMB A-87 to the appropriate cost objective.
FEMA                                                  Emergency Management Agency
                                                      Commonwealth of Massachusetts

         Hazard Mitigation Grmzts

Under the HMG program, FEMA approved management grants of $189,925 and $1 16,936 for
Disaster Nos. 1142 and 1224, respectively. However, MEMA initially charged all costs to
Disaster No. 1142. The estimates included HMG program employee salaries, fringe benefits,
and indirect costs.

MEMA officials told us that MEMA's policy was to charge all costs to one disaster or
emergency declaration at a time. According to MEMA officials, when the estimated amount of
costs awarded for one disaster was reached, the costs were charged to another disaster. We were
told by MEMA officials that, during the period of time when all charges were made to one
disaster, MEMA employees and contract employees had been working on several different
disasters and/or emergencies.

Because MEMA's employees do not record their time and effort by specific cost-objective(s),
this policy is followed. As a result, we were not able to detennine the proper amount of
management costs that should have been charged to the respective disaster(s) andlor emergency
declaration(s).



MEMA did not adequately assure that FEMA approved administrative allowances and
management grants were used in accordance with Federal requirenients. All types of expenses
were charged as adininistrative or nianagenient expenses based upon the availability of f~mdsin
the respective accounts rather than the nature of the expense. The Federally imposed restriction
tliat administrative allowalices only be used for extraordinary expenses was not followed. As a
result, the costs tliat should have been charged against the administrative allowance for each
approved PA and HMG progranis could not be readily determined.

In addition, MEMA's allocation of costs for the PA and HMG programs was not in compliance
with 44 CFR 13.20 and the cost principles established in OMB Circular A-87. MEMA was
charging costs to disasters but expending time on other disasters. The lack of time and effort
reporting prevented us from determining what disasters MEMA employees were actually
working on.

Accordingly, we recommend that the FEMA Regional Director, Region I, require MEMA to:

    1.      Review the charges to tlie adniinistrative allowances and approved liianagenient
            grants for PA and HMG programs to determine the eligibility and type of expenses,

   2.       Establish accounting procedures to assure that tlie FEMA approved administrative
            allowances and management grants are used only for respective types of expenses
            required by Federal regulations, and

   3.       Prepare time and effort reports that adequately account for time by disaster and
            program for all individuals tliat work on multiple disasters.
FEMA                                                  Emergency Management Agency
                                                      Commonwealth of Massachusetts


     Management Response and Auditor's Analysis

The state officials did not comment on this finding. However, the Regional Director, Region I,
concurred with the condition cited and committed to follow through on the recommendations.
We consider the condition to be resolved, but the finding cannot be closed until the
recommended actions are completed.


B. Program Management

1.    Closure of IFG Programs

MEMA did not request closure of IFG programs in a timely manner. Our audit disclosed that
MEMA did not submit closeout packages within the required timeframe. Although MEMA had
received grant extensions from FEMA, the programs were not closed for significant periods of
time after the extended period.

Federal regulations, 44 CFR 206.13 1, and the FEMA IFG Handbook require that state level grant
activity be completed within 180 days following the disaster declaration date. The state is also
required to complete all administrative activity within 90 days of the completion of the grant
activity. All closeout docuinents are to be sent to the FEMA Regional Office within this 90-day
period. The Regional Director may approve an extension for a period not to exceed 90 days if
requested by the state. Therefore, the time allowed from date of declaration to subn~issionof the
state's closeout package is 270-days, unless the state requests and is granted an extension by the
Regional Director.

For Disasters Nos. 1142, 1224, and 1364, the FEMA Regional Director granted extensions to the
state to complete the IFG program and submit its closeout package. The extension date for the
Disaster h'o.1142 program was July 25, 1997. However, the state did not submit its closeout
package until March 200 1. This was about 53 inonths after the date of the declaration and about
44 months after the administrative activity extension date of July 25, 1997 had expired.

For the Disaster Nos. 1224 and 1364 programs, the FEMA-approved extension periods had
passed at the time of our audit (August 2002) but the state had not submitted the required
closeout package. For Disaster No. 1224, FEMA had granted the state an extension to July 14,
2000. For Disaster No. 1364, FEMA had granted an exteilsion to January 7, 2002. These
disasters were declared on June 1998 and April 2001, respectively.

We discussed the delays in closing IFG programs with MEMA and Department of Transitional
Assistance (DTA) officials who administer the IFG program for Massachusetts. We were
advised that FEMA had suggested that the IFG program for Disaster No. 1224 remain open until
several IFG applicant cases were resolved. However, in August 2002, we noted at that time no
action has been taken either by the state or FEMA to resolve the open IFG cases. With regard to
FEMA                                                   Emergency Management Agency
                                                       Commonwealth of Massachusetts

the IFG program under Disaster No. 1364, state officials could not explain why the approved
extension period had passed without the IFG program being closed.



Federal regulations establish time limitations for the closure of IFG programs. These same
regulations provide for extensions of the time limits by the Regional Directors when warranted.
Therefore, it is essential that the state establish appropriate procedures to ensure that closeout
packages are submitted to FEMA within the agreed upon time periods.

Accordingly, we recommend that the Regional Director, Region I, require MEMA to establish
procedures to ensure that IFG closeout packages are prepared and submitted within the approved
time periods.

     Management Response and Auditor's Aizalysis

The state officials did not cominent on this finding. However, the Regional Director, Region I,
concurred with the condition cited and committed to follow through on the recommendation.
We consider the condition to be resolved, but the finding cannot be closed until the
recommended procedures are established.

2.   Improvements in Administrative and Program Planning

Improven~entsw ere needed in the preparation and submission of required administrative plans
for the Individual and Family and Public Assistance programs, and the program plans for the
Hazard Mitigation Grant program. We found that MEMA did not always submit the required
plans. As a result, the grantee was not paying sufficient attention to compliance with the Federal
planning documentation requirements.

     a. Public Assistance Administrative Plans

In accordance with the administrative requirements set forth in 44 CFR 206.207, a PA
adnlinistrative plan is to be submitted each year to the FEMA regional office for review and
approval. Grantees are also required to prepare amendn~entsto the plans to meet current policy
guidance for each disaster for which PA is included.

MEMA had been inconsistent in the preparation and the submission of the required annual plans.
Altl~ougha plan was submitted to FEMA for 199 1, MEMA did not submit annual plans for 1992
through 1998. During that 7-year period, three disasters and four emergencies were declared in
Massachusetts. For 1999, a plan was submitted and approved in August 2000,23 months after
the beginning of FY 1999. A plan was not prepared for the years 2000 and 2001.

In addition to not submitting annual administrative plans, MEMA did not prepare the required
disaster specific plans for five of the seven disasters with PA grant programs that were included
in the scope of our audit. MEMA said the plans were not prepared because FEMA had not
requested the plans.
FEMA                                                  Emergency Management Agency
                                                      Commonwealth of Massachusetts


     b.   Hazard Mitigation Grant Program Plans

Under the Hazard Mitigation Grant program, within 180 days after a disaster is declared, the
state is required to submit a Section 409 plan or plan update to FEMA for approval (44 CFR
206.405). The Section 409 plan is known as the Hazard Mitigation Program plan.

According to Federal regulations, a Section 409 Hazard Mitigation Program plan is supposed to
address all natural hazards within the state and is to be used in connection with the review and
approval of proposed individual hazard mitigation projects.

We noted that MEMA had not complied with the requirement that Section 409 program plans be
submitted within 180 days after a disaster is declared. According to information provided by the
state, Section 409 plans were not prepared in response to Disaster KO. 1142. Disaster No. 1142
was declared on October 25, 1996.

On July 10, 1998, MEMA submitted a Section 409 plan to FEMA for review and approval. The
plan was designated by MEMA as its "1998 update." Following the receipt of the regional
office's comments in July 1999, MEMA revised the plan and resubmitted it for regional
approval. The plan was approved by the regional office on August 28, 2000. The approved plan
was designated as the " 1999-2000 update."

According to MEMA officials, the Section 409 plan approved on August 28, 2000 was prepared
"pursuant to Disaster Nos. 1142 and 1224." While the August 2000 plan was submitted within
the 180-day requirement for Disaster No. 1224, it was not in compliance with this requirement
for Disaster No. 1142.

We also noted that a Section 409 plan was not prepared for the HMG program under Disaster
No. 1364, which was declared on April 10, 200 1.

     c.   Individual and Family Grant Administrative Plans

According to 44 CFR 206.13 1, states are required to submit IFG administrative plans each
January and iinmediately after each disaster to the FEMA regional office for approval. When
implementing the IFG program the state must adhere to the criteria and procedures specified in
these plans as approved by the Regional Director.

Although the state prepared an IFG disaster-specific administrative plan shortly after each
disaster, it had not prepared the required annual plans. Accordingly, the state was not in
compliance with the Federal IFG planning requirement that an administrative plan be approved
in January each year.
FEMA                                                  Emergency Management Agency
                                                      Commonwealth of Massachusetts

        Corzclzrsio~zsand Reconzinendations

The grantee's failure to submit required annual plans and disaster-specific plans in a timely
manner demonstrates the need for improvement in the state's overall planning process.
Moreover, an effective process within the regional office should have identified when required
plans were not submitted in accordance with Federal requirements.

Accordingly, we recoinn~endthat the FEMA Regional Director, Region I:

     1. Require MEMA to develop and implement appropriate procedures to ensure that required
        plans are submitted in a timely manner, and

     2. Ilnprove the regional office's procedures to ensure that the grantee complies with the
        Federal requirements for administrative and program plans and that the plans are timely
        approved.

     Marzagement Response and Auditor's A~talysis

The Regional Director concurred that procedures were needed to ensure that required PA and
IFG administrative plans were submitted in a timely manner. The Director committed to follow
through on the recommended actions.

 Regarding the HMG Program, the Regional Director stated that the Region had not required
MEMA to submit a Program Plan for disaster 1364 due to the enactment of the Disaster
Mitigation Act of 2000 that significantly changed the hazard mitigation planning process.
FEMA published regulations implementing the Act on October 1, 2002. Those regulations
required the grantee to submit a program plan by November 1, 2004 that meets its new
requirements. I11 addition, the regulations stipulated that until that date, existing Hazard
Mitigation Program Plan requirements are applicable. This necessitates that procedures be in
place to ensure that required plans are submitted in a timely manner.

The Regional Director concuired that procedures were needed within MEMA and the regional
office to ensure that the required program plans were submitted in a timely manner under both
the old and the new HMG program. Accordingly, the finding is resolved, but cannot be closed
until the recoininended procedures are established.

3.      Compliance with Single Audit Act Requirements

MEMA needed to improve its procedures for obtaining Single Audit Act reports from
subgrantees. We found that MEMA did not have procedures for inquiring of subgrantees about
other Federal funding sources and expenditures. MEMA's notifications to subgrantees
incorrectly stated the tlueshold for requiring single audit. As a result, subgrantees were provided
erroneous information on the Single Audit Act requirements.

For fiscal years beginning after June 30, 1996, states, local governments, and nonprofit
organizations that expend $300,000 or more in Federal funds during a fiscal year were required
FEMA                                                    Emergency Management Agency
                                                        Commonwealth of Massachusetts

to have an audit performed in accordance with the Single Audit Act requirements of 1996 and
OMB Circular A- 133. MEMA as the grantee was required to establish procedures to ensure
compliance with the Act, including obtaining and reviewing Single Audit Act reports from
subgrantees to identify non-compliance issues and internal control weaknesses that should be
corrected.

We noted that MEMA's procedures to help assure compliance with the Single Audit Act
involved notifying subgrantees receiving $300,000 or more from MEMA that they were subject
to the Single Audit Act and must submit a single audit report to MEMA. However, the Single
Audit Act requirement applies only to subgrantees that expend (not receive) $300,000 or more
in Federal funds during their fiscal year. Additionally, subgrantees that received or expended
less than $300,000 from MEMA may have expended $300,000 or more in combined Federal
funds. However, MEMA had no procedures to ensure that these subgrantees also complied with
the requirements of the Single Audit Act.

MEMA officials informed us that they planned to: (1) correct the follow-up letters sent to
subgrantees by stating that the Single Audit Act pertains to subgrantees who expend $300,000
or more in Federal funds during a fiscal year; (2) notify subgrantees, who have received less than
$300,000 from MEMA, that if they have received and expended $300,000 in Federal funds the
entity would be subject to the requirements of the Single Audit Act; and, (3) prepare a
certification letter that will be sent to each of the subgrantees asking that the subgrantees certify
if they are or are not subject to the Single Audit Act. MEMA stated that the final 10 percent in
payments would be withheld until subgrantees complete and rehum the certification letter to
MEMA.



MEMA is to be conmended for its special efforts in identifying subgrantees that had been paid
$300,000 or more in MEMA f~mds.This effort resulted in MEMA receiving copies of Single
Audit reports that might not have otherwise been received. However, MEMA's procedures did
not include notifying subgrantees who received less than $300,000 from MEMA but who may
have received and expended such funds from other Federal sources. Accordingly, there is a
possibility that some subgrantees that were required to have Single Audits performed had not
been audited.

We recommend that the FEMA Regional Director, Region I, require MEMA to establisl~
procedures to assure that:

    1.     Infoni~ationprovided to subgrantees is consistent with the requiren~entsof the 1996
           Single Audit Act, and

    2.     All subgrantees that expend more than $300,000 of Federal funds in a year comply
           with the requirement to have a single audit performed.
FEMA                                                 Emergency Management Agency
                                                     Commonwealth of Massachusetts

       Management Response and Auditor's Analysis

In response to the draft report, the regional office and MEMA officials concurred with the
finding. MEMA provided documentation supporting that revised procedures were implemented
to improve the grantee's coinpliance with the requirements of the Single Audit Act. Our review
of these procedures concluded that the actions taken by MEMA are adequate to close the finding.
FEMA          Emergency Management Agency
              Commonwealth of Massachusetts




       ATTACHMENTS
FEMA                                                  Emergency Management Agency
                                                      Commonwealth of Massachusetts


                                                                           Attachment A-1
                                Sources and Applications of Funds
                                    As of September 30,2001

               Disaster Nos. 914 thru 1364 and Emergency Nos. 3153 and 3165

                                       Public        Individual      Hazard        Totals
                                      Assistance     Ji Familv      Mitigation
Award Amounts (FEMA approved)
Federal Share
Local MatchIState Share
Total Am ard Amounts


Sources of Funds
Federal Share (SMARTLIXK)
Local MatchIState Share



Total Undrawn Authorizations


Application of Funds (Expenditures)
Federal Share
Local MatchIState Share
Total Application of Funds

Balance of Federal Funds On Hand
FEMA                                                           Emergency Management Agency
                                                               Commonwealth of Massachusetts


                                                                                                Attachment A-2
                                      Sources and Applications of Funds
                                          As of September 30,2001
                                               Disaster No. 914
                                          Declared August 26,1991

                                              Public            Individual         Hazard
                                                                                                     Totals
                                             Assistance          & Familv         hlitigation
Award Amounts (FEMA approved)
         Federal Share                          $28,895,942                  $0         $698.546     $29,594,488
         Local MatchIStatc Share                  9,272,595                   0          698,546       9,971,141
Total Award Amounts                             $38,168,537                  $0       $1,397,092     $39,565,629


Sources of Funds
          Federal Share (SMARTLINK)             $28.895,942                  S0         $698.546     $29,594,488
          Local MatchIState Share                 9.272,595                   0          698,546       9,971,141
Total Sources of Funds                          $38,168,537                  SO       $1,397,092     $39,565.629


Total Undrawn Authorizations                              $0                 $0                 $0            SO


Application of Funds (Expenditures)
         Federal Sharc                          $28,895,942                  $0         $698,546      $29,594,488
         Local MatchIState Share                  3,924,237                   0                0        3,924.237
Total Application of Funds                      $32,820,179                  $0         $698,546      $33,518.725


Balance of Federal Funds On Hand                          $0                 SO                 $0            $0


Program Status September 30,2001                    Closed               N/A             Closed
FEMA                                                        Emergency Management Agency
                                                            Commonwealth of Massachusetts



                                                                                              Attachment A-3
                                   Sources and Applications of Funds
                                       As of September 30,2001
                                            Disaster No. 920
                                      Declared November 4,1991

                                           Public             Individual         Hazard
                                                                                                   Totals
                                          Assistance          & Family          hlitigation
Award Amounts (FEMA approved)
         Federal Share                        $8,609,870         $1,792,550          $665,409      $1 1,067,829
         Local MatchiState Share               2,763,434            58 1,924          665,409        4,010,767
Total Award Amounts                          $1 1,373,304        $2,374,474        $1,330.818      $15,078,596


Sources of Funds
          Federal Share (SMARTLINK)           $8,609,870         $1,792,550          $665,409      $1 1,067,829
          Local MatchiState Share               2,763,434           581.924           665,409        4.010.767
Total Sources of Funds                       $1 1,373,304        $2,374,474        $1,330.81 8     $1 5,078,596


Total Undrawn Authorizations                           $0                  SO                 $0            SO


Application of Funds (Expenditures)
         Federal Share                        $8.609,870         $1,792,550          $665,409      $1 1,067,829
         Local Matchistate Share               1,035,268            581.924                 0         1,617,192
Total Application of Funds                    $9,645,138         $2,374,474          $665,409      $12,685,021


Balance of Federal Funds On Hand                       $0                  $0                 $0            $0


Program Status September 30, 2001                Closed             Closed            Closed
FEMA                                                           Emergency Management Agency
                                                               Commonwealth of Massachusetts


                                                                                                Attachment A-4
                                      Sources and Applications of Funds
                                          As of September 30,2001
                                               Disaster No. 975
                                         Declared February 21,1992

                                              Public             Individual         Hazard
                                                                                                     Totals
                                             Assistance           & Family         Mitigation
Award Amounts (FEMA approved)
         Federal Share                          $13,127,105                   $0
         Local MatchJState Share                  4,200.493                    0
Total Award Amounts


Sources of Funds
          Federal Share (SMARTLINK)             $13,127,105                   $0       $349,24 1     $13,476,346
          Local MatchIState Share                  4,200,493                   0        349,241        4,549,734
Total Sources of Funds                          $1 7,327,598                  $0       $698,482      $18,026,080


Total Undrawn Authorizations                              $0                  $0           $197               $197


Application of Funds (Expenditures)
         Federal Share                          $13,127,105                   $0       $349,241      $13,476.346
         Local MatchIState Share                  1,639,777                    0              0        1,639,777
Total Application of Funds                      $14,766,882                   $0       $349,241      $15,116,123


Balance of Federal Funds On Hand                          $0                  $0                $0              $0



Program Status September 30,2001                     Open                 NIA             Open
FEMA                                                         Emergency Management Agency
                                                             Commonwealth of Massachusetts


                                                                                                  Attachment A-5
                                      Sources and Applications of Funds
                                          As of September 30,2001
                                              Disaster No. 1090
                                         Declared January 24,1996

                                            Public            Individual         Hazard
                                                                                                     Totals
                                           Assistance         & Family          Mitigation
Award Amounts (FEMA appro\ ed)
         Federal Share
         Local MatchIState Share
Total Award Amounts


Sources of Funds
          Federal Share (SMARTLINK)           $24,752.882                  $0                $0        $24,752,882
          Local MatchIState Sharc               7,985,850                   0                 0          7,985,850
Total Sources of Funds                        $32,738,732                  SO                $0        $32,738,732


Total Undrawn Authorizations                            SO                 $0                $0                 $0


Application of Funds (Expenditures)
         Federal Share                        $24,752,882                  $0                $0         $24,752,882
         Local MatchiStatc Share                        0                   0                 0                   0
Total Application of Funds                    S24,752,882                  $0                $0         $24,752,882


Balance of Federal Funds On Hand                        SO                 $0                SO                 SO


Program Status September 30, 2001                  Open                NIA               NIA
FEMA                                                     Emergency Management Agency
                                                         Commonwealth of hlassachusetts


                                                                                         Attachment A-6
                                 Sources and Applications of Funds
                                     As of September 30,2001
                                         Disaster No. 1142
                                    Declared October 25, 1996

                                          Public         lndividual          Hazard            Totals
                                         Assistance       & Familv          Mitigation
Award Amounts (FEMA appro\ cd)
Federal Share                             $35,011,942     $1,440,988        $12,877.513        $49,330.413
Local MatcldState Share
Total Award Amounts

Sources of Funds
Federal Share (SMARTLIKK)                 $27,252.84 1    $1,440,988         $7,043,214        $35.737.043
Local Matchistate Share
Total Sources of Funds

                                                                  --
Total Undrawn Authorizatio~is              $7,759,101             $0         $5,834,299        $13,593,300

Application of Funds (Expenditures)
Federal Share                             $27,852,841     $1,440,988         $7,095,099        $36,388,928
Local MatcliiState Share                   $3,424,94 1      $480,330    *    $2,365,033    *    $6,270,304
Total Application of Funds                $31,277,782     S1,921,31 8        $9,460,132        $42,659,232

Balance of Federal Funds On Hand           (S600.000)             SO           ($51.885)        ($651.885)

Program Status September 30,2001                Open         Closed               Open

* Amount reported on FSR was $0; however, MEMA's accounting department provided these amounts.
FEMA                                                      Emergency Management Agency
                                                          Commonwealth of Massachusetts


                                                                                Attachment A-7
                              Sources and Applications of Funds
                                  As of September 30,2001
                                      Disaster No. 1224
                                      Declared June 23,1998

                                          Public        Individual     Hazard
                                                                                        Totals
                                         Assistance      & Family     Xfitigation
Award Amounts (FEMA approved)
         Federal Share                       $10,000    $1,200.000      $1.853,890     $3,063,890
         Local Match~StateShare                   $0      S396,000        $6 1 1,784   $1,007,784
Total Award Amounts                          S10,OOO    $1,596,000      $2,465,674     $4,071,674


Sources of Funds
           Federai Share (SMARTLINK)              $0      $717,800        $584,474     $1,302.274
           Local MatcldState Share
Total Sources of Funds


Total Undrawn Authorizations
                                         (See Note 1)
Application of Funds (Expenditures)
          Federal Share
          Local Matchistate Share
Total Application of Funds


Balance of Federal Funds On Hand                  SO             $0         $2,179         $2,179
                                                                       (See Note 2)
Program Status September 30, 2001                N/A         Open            Open

         * Amount reported on FSR was $0; however, MEMA's accounting department provided
     these amounts.

           Note 1 - Disaster No. 1224 did not have a PA program. MEMA has requested the
      regional office to deobligate the $10,000

                  -
          Note 2 The HMG $2,179 was incorrectly charged (drawn) to 1224. It should have
      been charged to 1142. The error was corrected subsequent to the audit cut-off date of
      09/30/01. Disaster No. 1142 was appropriately charged as part of the corrective action.
FEMA                                                      Emergency Management Agency
                                                          Commonwealth of Massachusetts


                                                                               Attachment A-8
                             Sources a ~ l dApplications of Funds
                                 As of September 30,2001
                                     Disaster No. 1364
                                      Declared April 10,2001

                                           Public       Individual      Hazard
                                                                                      Totals
                                          Assistance    & Family       Rlitigation
Award Amounts (FEMA approved)
         Federal Share                                     $800,000             $0      S800.000
         Local MatcliiState Share                          $264,000             $0      $264.000
Total Award Amounts                                SO    $1,064,000             $0    $1,061,000


Sources of Funds
           Federal Share (SMARTLINK)               $0     S612.175              $0     $612.175
           Local MatclilState Share                $0     S202,O 18             $0     $202,0 18
Total Sources of Funds                             $0     S814,193              $0     S814,193


Total Undrawn Authorizations                       $0     S187,825               SO    $187,825


Application of Funds (Expenditures)
          Federal Share                                   $633,939                     $633,939
          Local MatcliiStatc Share                        $204,058 *                   $204.058
Total Application of Funds                         $0     $837,997               $0    $837,997


Balance of Federal Funds On Hand                   $0     ($21,764)                    ($21,764)


Program Status September 30,2001                  NIA        Open            Open

           * Amount reported on FSR was $0; however, MEMA's accounting department provided
      this amount.
FEMA                                                   Emergency Management Agency
                                                       Commonwealth of Massachusetts


                                                                                 Attachment A-9
                                 Sources and Applications of Funds
                                     As of September 30,2001
                                       Emergency No. 3153
                                    Declared December 6,1999

                                        Public      Individual     Hazard              Totals
                                       Assistance   & Family     ;\litigation
Award Amounts (FEMA approved)
Federal Share
Local MatchIState Share
Total Award Amounts


Sources of Funds
Federal Share (SMARTLINK)
Local MatchIState Share
Total Sources of Funds


Total Undrawn Authorizations


Application of Funds (Expenditures)
Federal Share
Local Matchistate Sharc
Total Application of Funds

Balance of Federal Funds On Hand

Program Status September 30,2001             Open          NIA             NIA
FEMA                                                        Emergency Management Agency
                                                            Commonwealth of Massachusetts


                                                                                 Attachment A-10
                               Sources and Applications of Funds
                                   As of September 30,2001
                                     Emergency 30.3165
                                      Declared March 28,2001

                                           Public           Individual     Hazard
                                                                                         Totals
                                          Assistance        & Familv      Mitigation
Award Amounts (FEMA approved)
         Federal Share                     $1 9,776,545             $0
         Local Matchistate Share            $6,394,380              $0
Total Award Amounts


Sources of Funds
           Federal Share (SMARTLINK)        $9,589,345               $0            $0    $9,589,345
           Local MatchIStatc Share          53,164,484               $0            $0    $3,164,484
Total Sources of Funds                     S12,753,829               $0            $0   S12,753,829


Total Undrawn Authorizations               S10,187,200               SO            $0   $10,187,200


Application of Funds (Expenditures)
          Federal Share                      $9,955,22 1             $0            $0    $9,955,221
          Local MatchIState Share           S3,3 18,407 *            $0            SO    $3,3 18,407
Total Application of Funds                 $13,273,628               $0            $0   $13,273,628


Balance of Federal Funds On Hand             ($365,876)              $0            $0    (S365,876)


Program Status September 30,2001                 Open              NIA           NIA

          * Amount reported on FSR was $0; however, MEMA's accounting department provided
     this amount.
FEMA                                   Emergency Management Agency
                                       Commonwealth of Massachusetts


                                                              Attachment B
                       List of Acronyms


CFR    Code of Federal Regulations

DHS    Department of Homeland Security

DSR    Damage Survey Report

DTA    Department of Transitional Assistance

FEMA   Federal Emergency Managenlent Agency

FSR    Financial Status Report

GSA    General Services Administration

HMG    Hazard Mitigation Grant

IAO    Individual Assistance Officer

IFG    individual and Family Grant

MEMA   Massachusetts Emergency Management Agency

OIG    Office of Inspector General

OMB    Office of Management and Budget

PA     Public Assistance

PW     Project Worksheet
FEMA              Emergency Management Agency
                  Commonwealth of Massachusetts




       MANAGEMENT COMMENTS
       Federal Emergency Management Agency
                                            Region I
                                   J.W. McCormack Postoftice&
                                  Courthouse Building, Room 442
                                    Boston. MA 02109


Mr. Gary Berard
Department of Homeland Sec~lrityOffice
of Inspector General
Atlanta Field Office- Audit Division. 3003
Cllainblee Tucker Rd
Atlanta, GA 30341

Dear Mr. Berard:

Attached please find the State of Massachusetts response to the draft audit findings to the OJG
audit of the state of Massachusetts Disaster G r a n t progran~.Region One has reviewed this
response and concurs with its recommendations. The Region provides no additional comments.
We request that you consider these recommendations when you con~pilethe final report.

If you have any questions or need assistance please feel free to contact me or C h r i s Lynch, at
617-223-4564.
Daniel A. Craig




Regional Director
Enclosure
                   THE COMMONWEALTH OF MASSACHUSETTS
                         EXECUTIVE OFFICE OF PUBLIC SAFETY
                   MASSACHUSETTS EMERGENCY MANAGEMENT AGENCY
                                            400 Worcester Road
                                        Framingham, MA 01702-5399
                                   Tel: 508-820-2000 Fax: 508-820-2030
                                       Website: ~ ~ w ~ ~ . m a s s . g o v / m e m a

Mitt Romney                                                                                     Stephen 1.McGmil
Governor                                                                                             Director

  Kerry Healey
Lieutenant Governor

 Edward A. Flynn
   Secretaly

               September 25,2003

               Daniel Craig
               Region 1 Director
               Federal Emergency Management Agenc)
               U.S. Department of Homeland Security
               J.W. McCormack POCH Building
               Boston. MA 02109

               Dear Director Craig,

               I am writing to you to respond to the Audit of Disaster Assistance Grant Pro,erains. A
               report was prepared by Foxx and Company who conducted the audit and said report
               includes the results of their audit and their recommendations to help improve the
               Co~mnonwealthof Massachusetts's administration of the Federal Emergency Management
               Agency Disaster Assistance Grant Programs. At this time we bould like to specifically
               address certain findings and respectfully request that the body of the final audit report reflect
               the additional information we are providing at this time.

               Attached please find our comments. We thank you for your tune and attention.




              z 

                Sincerely,




               Kevin Beauregard                                                    Cristine McCombs
              Chief of Administration and Finance                                  Disaster Recob ery Manager

              Cc: Foxx and Company
The following information rebuts the current Endings in the 2003 FEMA Audit, pages 16 and 17:
in regards to the Massachusetts' State Hazard Mitigation Plan and Hazard Mitigation Grant
(HMGP) Administrative and Program Plans.

(1) First, the HMGP Administration Plan. Begiruiing on page 16, the FEMA audit states under the
heading, Hazard Mitigation Grant Administrative and Program Plans:

        Under the Hazard Mitigation Grant Program, states are required to submit a
        Section 404 administration Plan t o FEMA f o r approval for each disaster
        (44 CFR 2 06.43 7).I n addztzon, tivthz~z180 &ys affer a dzsaster IS declared, the state I S
        requzred to subnz~ta Sect1011409 Plau orpla~zupdate to FEMA jor approval (44 CFR 206 405)
        The Sectron 409plan zs /molt 17 as the H q o t d Mztrgatzoiz prograrn plan

On page 17, under tlie section entitled, Hazard Mitigation Administration Plan, the FEMA audit
states:

        Adnzzrzzstratzve plans were also notprepar*ed by MEEMA fol- uzdzvzdual disasters as requzred bjl
        Federal regulatzons In tlzls regard, we noted that. orzb one plarz coverzng two dzsasters had
        beelz prepared dur-~ngthe period covered by the audzt elleri tlzouglz s~.cdisasters lzave been
        declared that ~ncludeHMGP program The Sectzorz 404 admzrzistratzveplan prepared by
        MEA4A was zrlcluded as arz addendum to the August 2000 approved Sectlorz 409 Hazard
        Mltzgatlon Program plan- Tlzrs aclnizrzistrat~veplari, llke the Sectzorz 409 plarz, Jvas referred to
        by MEMA as prepared '$pursua~tto Disasters 1142 and 1224 "

MEMA dose not agree 1tit1z these statements due to the incorrect interpretation of the Federal regulations.
It should be noted that the current wording in 44 CFR 206.437 (as of Oct.l,2002) is:

        Following each major disaster, tlie state shall prepare arty updates, aniendinents or plan revisions
        required to meet current policy guidance or changes in the administration of the Hazard Mitigation
        Grant Program. Funds shall not be awarded until the administration plan is approved by the
        FEMA Regional Director.

The ley word here is "any." If a state has no "updates, amei~dmeiitsor plan revisions" to a FEMA approved
HMGP administrative plan at the time of a major disaster, tlzetz tlze state isn't required to submit a
whole new plan.

According to Massachusetts' records, the state devcloped its first HMGP Administrative Plan in 1990 (see
attached FEMA Region I approval letter). This plan was in place at the time of the Hurricane Bob in 1991 and
the 1991 and 1992 coastal storms. The 1900 HMGP Adrninistmtivc Plan was then updated in 1995 based on
lessoiis learned from the previous disasters (see attached
FEMA Region I approval letters). This updated version was in place at the time of the 1996 and
1998disasters (DR 1142 and 1224).

  When the State Hazard Mitigation Plan was updated in 1998 and in 1999, the HMGP
  Administrative Plan was also updated and included as an appendix to the 409, or State, Hazard
  Mitigation Plan. In 1998, following the June 1998 floods, Dave Brown, FEMA's Hazard
  Mitigation Officer on DR 1224, requested an update to both the 409 State Plan and the
  Administrative Plan. Mr. Brown reviewed both plans and approved them (see attached 404
  HMG.P Administrative Plan Review Checklist).

  In 2000, FElWdRegon I approved the 409, or State, Hazard Mitigation Plan, including the
  HMGP Adn~inistrativePlan. These approved plans were in place at the time of DR 1364Mar.
  2001 floods (see attached approval letter).

   (2) The second issue is the submittal and approval of the 409, or State, Hazard Mitigation Plan
  following recent disasters. Under the Section of the Hazard Mitigation Program Plan on
  page 17, the second, third and fourth paragraphs state:

   We noted that MEMA has not cornplied with the repirernerzt that Section 409 progr8arnplans
  be szrbrnitted within 180 days after a disaster is declared According to igfonnation provided by
  the state, Sectiorl 409plnns were not prepared in response to Disaster. Nos. 1142 and 1224
  declared on October 25, and 1996 and June 23, 1998, respectively.

  On July 10, 1998, MEMA submitted a Section 409 plan to FEMA for review arid approval,
  The plan was designated by MEMA as its "1998 update. ~rFollowirzg  the receipt of the
  regional ofice's comments i71 July, 1999, MEMA revised the plan and submitted it for
  regional approval, The plan was approved by the regional ohice on August 28, 2000. The
  approvedplan was designated as the "1999 2000 update.        "




  According to MEMA ojFcials, the Section 409plun approved on Alrg~ist28, 2000 was
  preparedpur.szrarzt to Disaster Nos. 1142 and 1224. "Wlzile the August 2000plarz was
  s~ibmittedwithin the 180-day requirement for Disasters No. 1224, it was not irt cornpliurzce
  with the requir*er~zerit
                        for Disaster I1 42".

  FEMA is correct in stating that MA didn't meet the 180 day timefran~efor submitting the 409, or
  State, Hazard Mitigation Plan following DR 114210ct. 1996. The update to this plan was being
  worked on when the June 1998 floods, or DR 1224, occu~ed.

  The above paragraphs also have contradictory statements in regards to the 180 day timeframe for
  submitting the 409 Plan update following DR1224. The first paragraph stated that MEMA did not
  meet this timeline, yet the last line of the last paragraph states that MEMA did meet this timeframe.

   FEMA timefianie in the second above paragraph is correct. The state did submit a 409 Plan update
   to FEMA following DR 1224lJune 1998 floods within the 180 day timeframe. As previously
   noted, this mas the state plan subnlitted to FEMA on July 10, 1998 and was approved
by FEMA's Hazard Mitigation Officer, David Brown, for the June 1998 Floods. The attached
documentation of FEMAts approval includes a statement on the review checklist that the plan was
submitted with 180 days of the disaster declaration- I11 addition, there is attached documentation, of
the state's submittal of the 409 Plan to FEMA Region I on July 10, 1998 and further updates
submitted on July 23, 1999. It should be noted that once the 409 Plan update was approved by
FEMA in 1998 following DR 1224, the state was not under any obligation to submit an additional
updated state plan, but the state did so anyway. The state received final approval on this plan from
FEMA Region Ion Aug. 28, 2000. This plan lvas in place when the DR 1364 was declared in
April, 200 1.

  The last paragraph in the FEMA azrdit on the Hazard Mitigation Program Plan states

 We also noted that a Section 409 plan was not prepared for the HMG progrmz under
 Disaster No. 1364 which was declared on April 10. 2001.

  Massachusetts was under no obligation to update its State plan because DR 1364 occurred after
  the enactment of the Disaster Mitigation Act of 2000 which, under Section 323 c (2), repealed
  Section 409 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act (42 U.S.C.
  5 176). This meant the repeal of the previously mentioned requirement of states updating its 409,
  or State, Plan, within 180 days following presidential disaster declarations.

 In addition, in a meeting with FEMA Region I staff following DR 1364, the state was told (see
 attached minutes from the 411 8/01 meeting) that "there is no longer a requirement that the state
 update its State Hazard Mitigation Plan and that new regulations in regards to mitigation
 planning and the DMA of 2000 will be released soon fi-om FEW national headqual.ters. " The
 state did prepare (under no obligation to any federal regulation) a short-term and long-term hazard
 mitigation strategy, in coordination with FEMA Region I and an Interagency Hazard Mitigation
 Committee, immediately following the 200 1 floods.
The following information hopes to clarify the current procedures MEMA has in place for
obtaining Single Audit Act reports from our subgrantees, It is important to note that our
procedures were in place on November 5,2002 prior to the Audit concluding.

On page 18, under the section entitled, Compliance with Single Audit Act
Requirements, the FEMA Audit states:

MEMA needed to improve its pl-ocedzires.for. obtaining Single Azidit Act reports.fr-om
subgrantees. Wefound that MEAL4 did not have proced~iresjor irzqziirirzg of'subgmnfees abozrt
other Federal f i ~ d i n gsources and experzditzwes. MEMA's notzficntions t o szlbgrantees
incon.ectlj~stated the threshold for requiring Single Azldit. As iz reszilt, szibgrantees lvere
provided ewoneous ilformation on the Single Audit Act requirements.

Attached for your review you will find a copy of a Certification of Compliance that relates to the
Single Audit Act. Beginning on Koveinber 5 , 2002 and continuing, we will be sending
subgrantees this written notice. Following the close of flze state fiscal year end in June, we will
send to each and every city and town that received any Federal finding during that fiscal year this
memorandum reminding them of the requireinelits of OMB circular A- 133. In addition, at the
time that a city and town is entering into the contract with US,they will be required to sign the
Certification of Compliance with the Single Audit, Act of 1996. It is important to note that both
of these actions were in place prior to the Audit concluding. As soon as the issue was brought
to our attention we immediately sought to rectify.




Kote: The attachments to the state's comments have been added to the audit workpapers.
                                                                            L .S. D e p a ~tment of Homeland S e c u ~15
                                                                            3.M. \IcCormacl. Post O f t ~ c e&
                                                                            Courthouse B u ~ l d ~ n Room
                                                                                                     g,   442
                                                                            Boston, 11 \ 02109




Mr. Gary Barard,
Department of Homeland Security
Office of Inspector General
Atlanta Field Office- Audit Division
3003 Chamblee Tucker Rd
Atlanta, GA 30341

Dear Mr. Barard:

This letter details this Region's response to the draft audit findings of the GIG audit of the state of
Massachusetts Disaster Grant program. Region One has reviewed the state of Massachusetts response and
concurs with its response to the Single Audit Act Requirement and the Hazard Mitigation Administrative
Plan. However, although we did not require a Hazard Mitigation Program Plan for Disaster 1364 due to the
new regulations enacting the Disaster Mitigation Act of 2000, we will ensure the OIG recommendation, to
have a plan, will be implemented under the new HM program. In addition, the Region concurs with the
following findings and will follow through on the recommendations:



          A: Financial Management
            lw, improvement in Financial Reporting
          A2. Accounting for Administrative Allowances and Management
          Grant Costs
            a. Use of Administrative Allowances and Management Grants
            b. Allocation of Management Grant Costs
          B. Program Management
            I. Closure of IFG Programs
            B2. Improvements in Administrative and Program Planning
            a. Public Assistance Administrative Plans
            b. Hazard Mitigation Program Plans
            c. I F G Administrative Plans

If you have any questions o r need assistance please feel free to contact Chris Lynch, or me at 617-223-4564.




                                        Note: The above letter provides additional detail to the
                                        comments submitted by the regional office on October 22,
Cc: Acting Deputy RD                    2003.
Division Directors
